<html>
<title> - MEETING THE CHALLENGES OF FEEDING AMERICA'S SCHOOL CHILDREN</title>
<body><pre>[Senate Hearing 113-366]
[From the U.S. Government Publishing Office]




 
                                                        S. Hrg. 113-366

                   MEETING THE CHALLENGES OF FEEDING
                       AMERICA'S SCHOOL CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION


                               __________

                             JULY 23, 2014

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry
            
            
            
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.fdsys.gov/
        
                              ____________
                              
                              
                           U.S. GOVERNMENT PUBLISHING OFFICE
89-520 PDF                     WASHINGTON : 2015                           
________________________________________________________________________________________     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="791e0916391a0c0a0d111c1509571a161457">[email&#160;protected]</a>  
  
        
        
        
        
        


            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY



                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
SHERROD BROWN, OHIO                  PAT ROBERTS, Kansas
AMY KLOBUCHAR, MINNESOTA             SAXBY CHAMBLISS, Georgia
MICHAEL BENNET, COLORADO             JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, NEW YORK         JOHN HOEVEN, North Dakota
JOE DONNELLY, INDIANA                MIKE JOHANNS, Nebraska
HEIDI HEITKAMP, NORTH DAKOTA         CHARLES E. GRASSLEY, Iowa
ROBERT P. CASEY, Jr., PENNSYLVANIA   JOHN THUNE, South Dakota
JOHN WALSH, MONTANA

             Christopher J. Adamo, Majority Staff Director

              Jonathan J. Cordone, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Thomas Allen Hawks, Minority Staff Director

       Anne C. Hazlett, Minority Chief Counsel and Senior Advisor

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Meeting the Challenges of Feeding America's School Children......     1

                              ----------                              

                        Wednesday July 23, 2014
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Cochran, Hon. Thad, U.S. Senator from the State of Mississippi...     3

                               Witnesses

Wiggins, Betti, Executive Director, Office Food Services, Detroit 
  Public Schools, Detroit, Michigan..............................     5
Clements, Scott, Director, Office of Health Schools and Child 
  Nutrition, Mississippi Department of Education, Jackson, 
  Mississippi....................................................     7
Bauscher, Julia, President, School Nutrition Association; 
  Director of School and Community Nutrition Services, Jefferson 
  County Public School, Louisville, Kentucky.....................     9
Wilson, Katie, Phd., Executive Director, National Food Service 
  Management Institute, University of Mississippi, University, 
  Mississippi....................................................    11
Muir, Phil, President and CEO, Muir Copper Canyon Farms, Salt 
  Lake City, Utah................................................    13
                              ----------                              

                                APPENDIX

Prepared Statements:
    Casey, Hon. Robert, P., Jr...................................    42
    Cochran, Hon. Thad...........................................    44
    Leahy, Hon. Patrick J........................................    46
    Bauscher, Julia..............................................    48
    Clements, Scott..............................................    53
    Muir, Phil...................................................    57
    Wiggins, Betti...............................................    62
    Wilson, Katie................................................    66
Document(s) Submitted for the Record:
Wilson, Katie:
    Online Course Catalog........................................    72
    NFSMI Training Topics........................................    73
Questions and Answers:
Bauscher, Julia:
    Written response to questions from Hon. Heidi Heitkamp.......    80
    Written response to questions from Hon. Robert P. Casey, Jr..    83
Clements, Scott:
    Written response to questions from Hon. Heidi Heitkamp.......    87
    Written response to questions from Hon. Robert P. Casey, Jr..    88
Muir, Phil:
    Written response to questions from Hon. Heidi Heitkamp.......    91
    Written response to questions from Hon. Robert P. Casey, Jr..    91
    Written response to questions from Hon. Kirsten Gillibrand...    94
Wiggins, Betti:
    Written response to questions from Hon. Heidi Heitkamp.......    95
    Written response to questions from Hon. Robert P. Casey, Jr..    96
Wilson, Katie:
    Written response to questions from Hon. Heidi Heitkamp.......    99
    Written response to questions from Hon. Robert P. Casey, Jr..   100



                   MEETING THE CHALLENGES OF FEEDING



                       AMERICA'S SCHOOL CHILDREN

                              ----------                              


                        Wednesday, July 23, 2014

                              United States Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 9:34 a.m., room 
328A, Russell Senate Office Building, Hon. Debbie Stabenow, 
Chairwoman of the Committee, presiding.
    Present or submitting a statement: Senators Stabenow, 
Leahy, Brown, Klobuchar, Gillibrand, Donnelly, Heitkamp, 
Cochran, Chambliss, Boozman, Hoeven, Johanns, Grassley and 
Thune.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
 OF MICHIGAN, CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION 
                          AND FORESTRY

    Chairwoman Stabenow. Good morning, and we are very excited 
about this hearing and welcome to each of you for coming. I do 
have to begin by saying we were saying back in the anteroom I 
think we want to do a hearing on school nutrition every week 
because we have been given a lot of great food this morning.
    We are going to make this a weekly effort. I know that 
Senator Leahy intends to come, but he brought us some pumpkin 
squares that we have from the school menu in Vermont, and I 
have tasted one. It is absolutely delicious. From Bob Casey, we 
have mushroom and meatballs. These are also great, 50 percent 
mushroom, 50 percent meat. I feel like I am on the Food Channel 
right now.
    [Laughter.]
    Chairwoman Stabenow. These are also excellent. We thank 
Senator Casey who will be joining us, and we also have and I 
think Phil Muir from Salt Lake City is going to talk to us 
about what a half a cup looks like. Right. You brought that for 
us, and we have got some apple slices. We are here for the 
duration. We can last a while this morning.
    Not to offend my wonderful cafeteria folks where I was 
growing up in Claire but we did not eat like this when I was in 
school, this very delicious food this morning.
    We are very appreciative of everyone being here for our 
second hearing on child nutrition and to be able to talk to 
those in the trenches who are working hard to make things 
happen in the right way for our children.
    Let me just start by saying what we all know, that 
according to the Center for Disease Control, obesity in young 
children has more than doubled in the last 30 years. That is 
why this discussion is so important. It has grown more than 
four times higher for teenagers in the same time frame.
    That is why we are involved. That is why we care. That is 
why this is a priority. That means today more than one out of 
every three children is either overweight or obese. As a 
country, we spend one out of every five healthcare dollars 
treating obesity-related illnesses every year.
    At our first hearing on this issue, we heard jarring 
testimony from a military general that 75 percent of our youth 
cannot qualify for military service, 75 percent.
    If we can turn a corner in this country by offering healthy 
food choices in schools and by teaching healthy eating habits, 
we will not only improve the health of our children but our 
country's long-term economic and national security as well.
    Today we will examine the way school food service 
directors, farmers, school administrators, professionals, 
parents, community leaders are meeting the needs of our 
children every day by working together to serve healthy meals.
    You know, we have all heard the jokes about school meals 
and certainly growing up the burnt fish sticks and mystery meat 
tacos and cafeterias full of deep fries. I know from visiting 
with Betti that those are gone in Detroit, and those days I 
know are over.
    I have had the opportunity to visit many schools all across 
Michigan and I have been very impressed to see elementary 
school students enjoying broccoli and pineapple from the salad 
bars and students learning about where their food comes through 
farm to school garden efforts that are very exciting.
    The really good news is that this is not just happening in 
Michigan but in schools all across the country. We are seeing 
schools installing salad bars and serving low-fat turkey 
burgers and burritos packed with vegetables and whole grains.
    Schools are encouraging children to eat healthier by 
showing them that healthy can taste good too. In some cases, 
the students are not only enjoying this food at school but they 
are beginning to ask for it at home, and I have talked to local 
grocers who on different days have said they run out of 
different vegetables or fruits and could not figure out what 
was going on and discovered that was the day it was being 
served at school and the kids were going home and being for the 
parents to buy it at night. It is really interesting.
    This is so important when we look at where we are right now 
in terms of childhood obesity. We can only make these important 
changes if our friends and partners in the food industry, 
nonprofit organizations, agriculture, state and federal 
agencies, cafeterias, classrooms all work together.
    Today we will hear how schools are providing these 
fundamental foundational meals every day. Like the ingredients 
in many of the meals of schools serve, the work each of our 
witnesses does represents a key ingredient in helping our 
schools rise to the challenge of feeding our Nation's children.
    As we know, this is not an easy task but the goal of 
reducing childhood hunger and obesity is too important to 
reverse course now. Instead, we are looking forward of how we 
can work together.
    Today we will examine some of the challenges schools face 
in providing access to healthy foods, and most importantly, 
what solutions are there to address many of these concerns.
    Thank you again. I want to turn now to my distinguished 
Ranking Member and friend, Senator Cochran, for his opening 
remarks.

STATEMENT OF HON. THAD COCHRAN, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Cochran. Thank you very much, Madam Chairwoman, and 
we appreciate the attendance of all who are here today. I am 
especially pleased that we have two witnesses on our panel from 
Mississippi to discuss the school feeding programs and other 
programs that comprise federal support and provide the benefits 
of nutrition and physical soundness that we need in our 
country.
    I think we can continue to improve on the federal role, and 
this hearing furthers that purpose. Comments and suggestions 
from our witnesses about ways to improve these programs are 
welcomed and encouraged.
    I believe that there should be local flexibility to 
accommodate common sense concerns from the administrators at 
the local level, and any suggestions for changes in the 
underlying federal legislation supporting these programs is 
welcomed. We appreciate your participation with us in this 
endeavor. Thank you.
    Chairwoman Stabenow. Thank you very much, and I know, 
Senator Cochran, you have come, as you indicated, two 
distinguished representatives from Mississippi here. We are 
going to introduce our members and certainly if you want to, at 
the appropriate point, to introduce your members, your guests, 
we certainly want you to do that.
    Of course as always, our members are welcomed to put 
opening statements into the record but we will proceed now with 
the testimony.
    I am very pleased to introduce our first witness on this 
panel, Ms. Betti Wiggins, the Executive Director of Food 
Services for the Detroit Public Schools, which provides meals 
to 55,000 students every day.
    To date she has helped the district develop 77 school 
gardens. I have not seen all of them but I have seen a number 
of them. Certainly they are throughout the city supported by 
the Farm to School Program and improved the local community by 
serving minimally processed and locally produced foods whenever 
possible.
    Before joining Detroit Public Schools in 2000, Ms. Wiggins 
was the Chief of Food Service Administration for the public 
schools in Washington, DC, also served as the Vice Chair of the 
Local Food Association, a national trade group for local 
businesses that worked to increase market access and market 
share for both seller and commercial buyers of local food.
    Now, I will turn to Senator Cochran to introduce our next 
witness, Mr. Scott Clements.
    Senator Cochran. Madam Chairwoman, it is my pleasure to 
present Mr. Clements, who is Director of the Office of Child 
Nutrition and Healthy Schools at the Mississippi Department of 
Education.
    In this role, he administers eight federal nutrition 
programs, including the National School Lunch, School 
Breakfast, Summer Food Service and Child and Adult Care Food 
Programs.
    In addition, his office directs several school-related 
health programs. He has 14 years of experience in child 
nutrition. He is the past president of the Mississippi School 
Nutrition Association and has served on the USDA Child 
Nutrition State Systems Working Group.
    May I also introduce Dr. Wilson?
    Chairwoman Stabenow. You are welcome to.
    Senator Cochran. Dr. Kathryn Wilson is the Executive 
Director of the National Food Service Management Institute at 
the University of Mississippi in Oxford. She serves as an 
Associate Professor at the University as well.
    She holds numerous academic degrees in food science, 
nutrition, and related fields, and has 23 years of experience 
as a school nutrition director. She has also served as the 
president of the School Nutrition Association.
    I am very pleased that both of them could be here today to 
help us review the nutrition programs that are administered by 
the Federal Government.
    Chairwoman Stabenow. Thank you very much.
    Next we are very pleased to have Ms. Julia Bauscher, who is 
president of the School Nutrition Association for 2014 through 
2015 school year. She is also the Director of School and 
Community Nutrition Programs at Jefferson County Public Schools 
in Kentucky where meals to 100,000 students are served in 144 
schools.
    Prior to joining the school district, Ms. Bauscher was a 
sales manager for three different food manufacturers. RJR 
Nabisco, Campbell Soup Company, and AJ Seibert Company.
    Since joining the district in 1994, Ms. Bauscher has 
overseen the development of a central kitchen and has leveraged 
the community by enlisting the help of a local professional 
chef to develop recipes.
    Finally, we are pleased to have Mr. Phil Muir, who is the 
president and CEO of Muir Copper Canyon Farm. He oversees his 
family produce business that began in 1850. You do not look 
that old actually.
    [Laughter.]
    Chairwoman Stabenow. That is pretty good. Muir Copper 
Canyon Farm is based in Salt Lake City, Utah, serving the 
entire State of Utah and parts of Idaho and Wyoming.
    Mr. Muir's clients include K-12 schools and universities, 
casual and fine dining restaurants. Mr. Muir serves on the 
Nutrition and Health Council of the United Fresh Foundation. In 
2007, Mr. Muir served as Chairman of PRO*ACTIVE, America's 
leading distributor of fresh produce to the food service 
industry.
    Welcome to all of you, and let me remind you that we do ask 
you to limit your comments to five minutes. We welcome any 
other written testimony and information that you would like to 
give us. But in the interest of time, and we actually have a 
vote at 11:00 today so we want to make sure we have ample time 
to move through and ask questions.
    We will start with Ms. Wiggins, welcome.

  STATEMENT OF BETTI WIGGINS, EXECUTIVE DIRECTOR, OFFICE FOOD 
      SERVICES, DETROIT PUBLIC SCHOOLS, DETROIT, MICHIGAN

    Ms. Wiggins. Chairwoman Stabenow, Senator Cochran, 
honorable members of the Committee, I am Betti Wiggins, the 
Executive Director of the Detroit Public Schools' Office of 
School Nutrition. I am honored to be with you here today to 
address what I believe to be a topic of fundamental importance 
to all of us: the health and well being of America's children.
    As we all know, in school cafeteria lines, there are no Ds 
and Rs. There are only young Americans who we are all 
privileged to serve. I am grateful to Chairwoman Stabenow and 
to Ranking Member Cochran for the deliberative and constructive 
tone of this Committee's deliberations on this important issue.
    The trials and tribulations of Detroit are well known. In a 
district with declining enrollment and multiple facilities 
closures in recent years, I have the great pleasure of 
supervising the provision of high quality meals to 
approximately 50,000 valued and loved children.
    Most of our children eat breakfast and lunch with us, and 
many also eat supper within our facilities. Our work makes a 
critical positive difference in the their lives, their 
families, and our community. DPS was the first school district 
in the country to make breakfast universally available, 
supported by several studies that demonstrate a direct 
correlation between eating breakfast and improved academic 
performance.
    Our lunch program provides free, fresh-cooked, hot foods to 
all students in all schools. Our menu includes a healthy array 
of fresh vegetables and fruits, whole grains, lean proteins, 
100 percent fruit juices and low-fat milk. We also offer free 
healthy suppers for numerous at-risk students through our 
after-school programs.
    In Detroit, we have warmly welcome the higher nutritional 
standards of the 2010 Healthy, Hunger-Free Kids Act. The 
legislation and resulting regulations have prompted us to 
institute changes that are making a positive difference in the 
lives of our children and our employees.
    The improved nutrition standards provide a framework that 
supports several other provisions of the legislation, including 
additional training opportunities for school nutrition staff 
and equipment purchasing assistance.
    It is the improved nutrition standards that have allowed us 
to introduce new equipment in our kitchens. Produce washers, 
salad bars, vegetable steamers, warming stations and convection 
ovens are the new norm.
    Yes, Senator Stabenow, deep fat fryers are obsolete.
    The nutrition standards are a force for positive change in 
Detroit, a force that we see as a necessity for improving the 
life long health and well being of our children.
    In addition to new equipment, our food distribution 
partners are finding the products we need to provide our 
children the quality food they need and deserve. We have found 
food manufacturers become determined to meet our improved 
nutrition standards. Food companies of all sizes are developing 
innovations designed to help us meet the new regulatory 
requirements.
    All of this change is enabling us to be more effectively 
serve the nutritional needs of all our children. While 
approximately 87 percent of our children in Detroit are 
eligible for free school meals, I have discovered through my 
career that hunger and malnutrition is not confined to children 
from low-income families.
    In fact, food insecurity is as common among children from 
the end of the cul-de-sac as it is among those from urban 
street corners. The Community Eligibility Provision, or CEP 
option, allows high-poverty schools like those in our district 
to provide breakfast and lunch to all students free of charge, 
increasing efficiency and reducing hunger.
    The program also delivers benefits to our program through 
reduced administrative burdens resulting from elimination of 
paper applications. The increased meal participation rates 
allow me to capture economies of scale, while the savings 
generated by elimination of paper applications covers the cost 
of providing meals to children who might otherwise pay, 
improving the overall financial stability of our programs.
    As you are likely aware, 4000 schools in 11 states are now 
participating in CEP. The work of you and your Committee, 
Chairwoman Stabenow, is making a critical positive difference 
in the lives of tens of thousands of Detroit children each and 
every day.
    Each of you knows far better than I that USDA funding is 
all about improving the economic conditions of rural America. 
One of my greatest joys and another direct benefit of improved 
nutrition standards has been increasing our purchase of 
Michigan grown, Michigan grown farm products.
    As the Vice Chair of the Local Food Association, the 
Nation's only trade association for buyers and sellers of 
sustainably produced local food products, I am particularly 
motivated to do my part to increase the market share of local 
farmers.
    Our Farm to School Program has produced partnerships with 
regional farmers that are generating healthy returns for them 
and for our children. We are feeding fresh Michigan asparagus 
to inner city teenagers, and they like it. We are increasing 
our children's exposure to fresh foods, planting the seeds for 
lifelong habits that will produce improved health and quality 
of life.
    In addition to fresh vegetables and fruits from nearby 
farms and Farm to School Programs, we also have the additional 
benefits of delivering educational opportunities in the 
cafeteria, classroom visits by participating farmers, and 
school garden opportunities.
    In 2012, DPS and its community partners initiated an effort 
to create gardens at the schools throughout the district, 
expanding teachers' access to real-life laboratories to teach 
children about healthy eating, nutrition, and concepts around 
growing food while increasing our schools' access to fresh 
fruits and vegetables. Each site features raised beds bed built 
by our children, and thereby having access to fresh fruits and 
vegetables.
    The learning centers, these garden sites then become 
learning centers. We now have 71 schools with gardens. We have 
a 2 and a half acre school farm and we have reestablished the 
nationally known Catherine Ferguson Farm. We are also currently 
engaged in the development of the Kettering Project, which is 
the repurposing of a closed thirty-acre high school site.
    In conclusion, Madam Chairwoman, our recent shared progress 
toward improving school nutrition programs represents a solid 
value proposition for the Nation. As leaders responsible for 
the well being of children, whether we are parents, in 
Congress, school nutrition officers, in food business or at 
USDA, we must steal our focus away from the process of change 
to instead emphasize the progress enabled by the new policies.
    Institutional change is difficult, and often seems near 
impossible. It always takes time and includes short-term 
discomfort. The investments prompted by improved school 
nutrition standards have and will continue to generate 
invaluable returns.
    Any short-term pains pale in comparison to the benefits 
from reform that is both highly desirable and attainable. 
Change worth making takes time. Nine out of ten school 
districts across the country are already in compliance with the 
new standards. We are making it work and work well in Detroit. 
I am fully confident that all other districts will do the same.
    Thank you again for the opportunity to be with you, 
Chairwoman Stabenow. As a Michigan resident, I want to say how 
proud and grateful we are for your leadership on this issue. 
Thank you.
    [The prepared statement of Ms. Wiggins can be found on page 
62 in the appendix.]
    Chairwoman Stabenow. Thank you very much. We are so pleased 
to have you here today.
    Mr. Clements, we welcome you as well.

STATEMENT OF SCOTT CLEMENTS, DIRECTOR, OFFICE OF HEALTH SCHOOLS 
 AND CHILDREN NUTRITION, MISSISSIPPI DEPARTMENT OF EDUCATION, 
                      JACKSON, MISSISSIPPI

    Mr. Clements. Thank you very much. Chairwoman Stabenow, 
Ranking Member Cochran, and Members of the Committee, my name 
is Scott Clements and I am the Director of the Offices of 
Healthy Schools and the Office of Child Nutrition for the 
Mississippi Department of Education.
    On behalf of State Superintendent Wright, the State Board 
of Education, and our many thousands of food service workers in 
Mississippi, thank you for this opportunity to speak to you 
today.
    I have a few Mississippi initiatives I would like to 
discuss. The first of those is our state-wide purchasing 
cooperative, the first child nutrition state-wide purchasing in 
the country. This project actually began in 1992 and it is an 
effort to both lower costs and simplify procurement for local 
school districts.
    The majority of school districts in Mississippi have only a 
very small number of schools and many of these are rurally 
located. As such, both product prices and delivery fees were 
high due to the limited buying power of those small districts. 
However, by pooling the buying power of almost every school in 
our State, we are able to utilize the economies of scale 
inherent with large volume purchasing. This allows us to 
provide significant savings to participating organizations.
    Our office issues bids for foods and related supplies used 
in excess of $130 million per year. Due to the high volume of 
purchases, we are able to negotiate prices directly with 
manufacturers and sometime, we are able to reduce costs even 
further by having only delivery phases associated with those 
items.
    Currently, the Cooperative has 183 member organizations 
with almost a thousand delivery sites. The majority of the 
participating organizations are public schools, and we have all 
but two of our school districts in the State participating. We 
also have a number of Head Starts and governmental agencies who 
are also participating in the National School Lunch Program.
    We are not allowed to use USDA State Administrative Expense 
Funds to support this program unfortunately. Instead, the 
Cooperative is self-funded. We charge participants about half a 
penny per lunch served to pay for staff, travel and office 
supplies associated with the program.
    Our office is also responsible for the ordering and 
distribution of over $16 million of USDA donated foods 
annually. Through our Purchasing Cooperative, we already have a 
statewide delivery system in place so we are able to further 
reduce the costs for our participating organizations by having 
those USDA Foods delivered by the same manufacturers and the 
same brokers.
    We have also made use of both the buying power and 
distribution network of our purchasing cooperative to support 
Farm to School at the State level. Even though Mississippi is 
an agriculture-based State, schools face many challenges 
implementing Farm to School Programs. Many of our State's most 
abundant crops, cotton and soybeans, obviously cannot go to the 
cafeteria table. Then we have many of our most plentiful crops 
also have harvested during the summer season when school is not 
in session.
    To assist our Mississippi schools and our Mississippi 
farmers, we have worked with the Department of Defense and the 
Mississippi Department of Agriculture since 2002 to bring 
locally grown products to schools throughout the State. During 
school year 2014-2015, we will have about $1,000,000 of 
locally-grown produce delivered to schools through our office.
    Another initiative of our office was to assist schools in 
meeting the new sodium requirements. When first announced, 
products simply did not exist to make it available for schools 
to meet the sodium requirements and still have nutritious and 
appetizing meals to maintain participation. The buying power of 
our cooperative again played a role. We were able to partner 
with a chef from the Culinary Institute of America and a 
national food manufacturer to provide, actually they produced a 
new low sodium spice blends. We have three of those available 
now, and those are now available to schools through the United 
States. We also supplied schools with 50 standardized recipes 
to incorporate the new spice blends to reduce sodium in the 
school meals.
    The last thing I would like to talk to you about is school 
meals, recipes, and the menus. Since 1996, Mississippi has 
provided Mississippi cycles. It was a coordinated program of 
the sample menus and recipes that the schools could implement 
and meet nutrition standards.
    That was updated in 2005 but we found with the new Health 
Hunger Free Kids Act in 2010 that system no longer worked. The 
menu planning was more complex. We put together a task force. 
We created Mississippi Recipes for Success.
    We now have matrices. We have standardized menus. We have a 
six-binder set that will be going to all of our schools. We 
have an online program that is available to any school in the 
country that would like to participate, and this was all in 
response to the complex menu planning which we unfortunately 
felt like our small schools just did not have the resources to 
implement by themselves.
    The last piece of that is again with our purchasing 
cooperative, Mississippi Recipes for Success, we have 
standardized ingredients. We have standardized recipes across 
the board for almost all of our schools in Mississippi; and 
that has been a benefit to us when it comes to the 
administrative reviews which are more frequent now than they 
used to be, are more complex in many ways than they used to be. 
But by having all those pieces together, it has simplified the 
process and made it possible for Mississippi to meet those new 
standards.
    Thank you again for the opportunity to appear before this 
Committee. I would be pleased to answer any questions or 
provide additional information as needed. Thank you.
    [The prepared statement of Mr. Clements can be found on 
page 53 in the appendix.]
    Chairwoman Stabenow. Well, thank you very much.
    Ms. Bauscher, thank you very much. We are very glad that 
you are here.

STATEMENT OF JULIA BAUSCHER, PRESIDENT, DIRECTOR OF SCHOOL AND 
  COMMUNITY NUTRITION SERVICES, SCHOOL NUTRITION ASSOCIATION, 
      JEFFERSON COUNTY PUBLIC SCHOOL, LOUISVILLE, KENTUCKY

    Ms. Bauscher. Thank you. Chairman Stabenow, Ranking Member 
Cochran, other Members of the Committee, on behalf of the 
55,000 members of the School Nutrition Association, thank you 
for the opportunity to discuss our shared goal of strengthening 
America's child nutrition programs.
    School nutrition professionals recognize the importance of 
healthy school meals to the academic success of American's 
students. That is why we have expanded our school breakfast 
options, increased summer feeding sites, launched new supper 
programs, and are taking advantage of the new community 
eligibility provision.
    We have worked diligently to improve the nutrition of 
school menus and we support most of the new regulations. We are 
increasing the serving size and variety of the fruits and 
vegetables we offer, serving more whole grains and meeting 
limits on calories and fats while reducing sodium. We are also 
making healthier choices more appealing to students and 
steadily increasing the quantity of local foods we serve.
    School attrition professionals are truly committed to the 
Healthy, Hunger-Free Kids Act and its goal of expanding access 
to school meals, and that is why we are so concerned about the 
historic decline in student lunch participation.
    For thirty years, the National School Lunch Program has 
grown steadily. But according to USDA, under the new 
requirements, student participation is abruptly down in 49 
states. More than one million fewer students choose school 
lunch each day, even though student enrollment in participating 
schools increased by 1.2 million last year.
    Nationwide, we have witnessed a nearly 15 percent decline 
in paid meal participation. If this trend continues, the school 
cafeteria will no longer be a place where all students dine and 
learn healthy habits together, but rather a place where poor 
students must go to get their free lunch.
    Despite our best efforts, schools have struggled with 
student acceptance of new menu options. Many have been 
challenged to find whole grain rich tortillas, biscuits, 
crackers, and other specialty items that appeal to students.
    Students have complained that their pastas and breads are 
burnt, tough or taste strange; and indeed, these whole grains 
do have a different texture, appearance, and flavor than what 
students might find at home or in their favorite restaurants.
    Food companies serving the school have introduced new foods 
that meet all of the standards and student tastes, but some of 
these products are not widely available or affordable, 
especially to small and rural districts.
    School districts with low free and reduced eligibility also 
face unique challenges under the standards because paid meal 
participation declines have a greater impact on their budgets. 
In states like Colorado, Minnesota, New York, and Illinois, 
some schools are dropping out of the program rather than having 
to meet the rigid and costly requirements. Most school 
districts, however, rely on the National School Lunch Program's 
reimbursements and do not have the option or desire to leave 
the program.
    The School Nutrition Association found that in the 2012-
2013 school year 47 percent of school meal programs reported 
revenue declined while more than nine of ten reported food 
costs were up. With the federal reimbursement rate for serving 
a free lunch just over $3, schools are required to serve 
healthy school meals for less than what most people paid for 
their morning coffee. Schools must cover labor and benefits, 
supplies, equipment, and other expenses, leaving little more 
than $1 for the food for each lunch tray.
    Food, especially those required in the new regulations, is 
getting more expensive. Yet, despite significant increases in 
prices over the last year, the reimbursement rate adjustment 
for the coming school year was actually smaller than the 
previous school year.
    In my district, each half pint of milk alone will cost me a 
nickel more this school year, exceeding the four cent increase 
for the breakfast. Although we appreciate every penny received, 
this adjustment comes nowhere close to covering the costs 
schools face now that they must double the amount of fruit 
offered at breakfast, up to a full cup.
    Meanwhile, now that students must take a fruit or vegetable 
with their meals, whether they intend to eat it or not, we have 
watched in despair as much of this costly produce ends up in 
the trash, $680,000,000 per year, according to Cornell 
University researchers.
    As schools struggle to manage rising costs and waste, what 
once was a problem for meal programs is rapidly becoming a 
problem for school districts. We cannot carry over annual 
losses so school districts have to pick up our tab. Financial 
instability in the meal program can cut into a school 
district's educational funds.
    This fall schools face more challenges as they work to meet 
the new Smart Snacks in School rules. While many of these 
requirements are welcome changes, some meal programs have had 
to strip healthy entree options from their a la carte menus 
because of the strict sodium limits under Smart Snacks.
    In closing, I ask that School Nutrition Association's 
55,000 members continue to be part of the on-going discussion 
as members of the Committee draft the reauthorization language.
    Thank you again for inviting me here today and I am happy 
to answer any questions the Committee has.
    [The prepared statement of Ms. Bauscher can be found on 
page 48 in the appendix.]
    Chairwoman Stabenow. Thank you very much. We certainly 
intend to have you involved all the way along.
    But Dr. Wilson, welcome.

 STATEMENT OF KATIE WILSON, PHD., EXECUTIVE DIRECTOR, NATIONAL 
 FOOD SERVICE MANAGEMENT INSTITUTE, UNIVERSITY OF MISSISSIPPI, 
                    UNIVERSITY, MISSISSIPPI

    Dr. Wilson. Thank you. Madam Chair, Senator Cochran, 
Members of the Committee, I am Dr. Katie Wilson, the Executive 
Director of the National Food Service Management Institute, at 
the University of Mississippi in Oxford, Mississippi.
    I appreciate the opportunity to share our outreach with you 
today. We are meeting here at a time of unprecedented coverage 
of the school. School meal programs are not only a key part of 
the vital health safety net for our Nation's children, but as a 
past school nutrition director in Wisconsin for 23 years, I 
believe they are the best safety net for our children. When a 
child walks through those cafeteria doors, the benefit is in 
the form of food and the child is assured access to that food.
    Due to the scope of that responsibility, school meal 
programs should also serve as learning tools educating children 
what a healthy meal looks like. We operate in the education 
arena, so school meals must be part of that education process.
    As a country, we have a serious problem with obesity. It is 
simply overwhelming to think about the health outcomes of the 
future. Yet, at the same time, each of us in this hearing room 
is struggling to balance our idea of what a school meal should 
consist of and under what guidance school meals should operate.
    In a school meals learning exchange with the United 
Kingdom, I have come to learn that the nutrition standards 
instituted throughout the United Kingdom years ago are still 
actively progressing the health and well-being of students. 
They will tell you it was not easy and it took time for 
students to accept them, but it was in the best interest for 
national wellness. Scotland, for example, has begun to see a 
decrease in dental carries along with other positive outcomes.
    Lindsay Graham, School Food and Health Advisor from the 
United Kingdom, is here in the audience today as a Churchill 
Fellow from the Winston Churchill Memorial Trust. She can lend 
more detail after the hearing if there is interest.
    The strong federal support for these programs in the United 
States is of interest to our colleagues in the United Kingdom.
    One of the areas of interest to many child nutrition 
professionals are the numerous resources available from the 
National Food Service Management Institute, also known as ``The 
Institute''. These resources are all available free of charge 
to assist everyone throughout the United States and its 
territories, involved in providing meals to children using the 
federal school meal programs. The Institute is the only 
federally funded national center dedicated to assisting child 
nutrition professionals in improving the quality and operation 
of child nutrition programs. Authorized by Congress under 
Section 21 of the Richard B. Russell National School Lunch Act, 
it is funded by the U.S. Department of Agriculture and other 
outside foundations.
    Training and assistance is available in a variety of 
formats. We have over 20 training topics from hands on culinary 
training, financial management, inventory control, and meal 
pattern training available in a face-to-face format.
    With approximately 200 plus trained trainers organized as 
regional training teams throughout the USDA regions, we have 
provided face-to-face training for over 7000 child nutrition 
professionals throughout the United States and its territories 
during 2012-2013 reporting period. I just got the numbers for 
this year, and it was well over 8000 participants of face-to-
face trainings that occurred.
    One specific example of this included Healthy Cuisine Kids 
Culinary Class, a two day training taught by a chef and a 
registered dietitian. It is offered whenever a state school 
nutrition association or a state agency requests it.
    In Mississippi, the State Agency organized eight of these 
classes with over 240 total participants in the State in a two-
month period. In California, they organized over 10 of these 
culinary classes throughout their State with 350 total 
participants, all funded either by outside foundations or the 
USDA grant administered by The Institute.
    These are hands-on classes offering school nutrition 
professionals the opportunity to learn new culinary skills or 
refresh the ones they already have. All other face-to-face 
topics are available in the same manner. All of our curriculum 
for these face-to-face trainings are available to download free 
of charge for districts to use within their own time frame and 
convenience in an easy to use manner.
    Many short training videos are available for download and 
use in school and child care kitchens as well. These are 
anywhere from 6-to 20-minute videos on very specific topics 
such as cooking dried peas and beans. We have many of these 
trainings available as online training courses. From how to 
best use USDA Foods, nutrition 101, food safety, norovirus, and 
others. There are over 40 topics of online courses easy to 
access from your computer or tablet, all free of charge.
    Participants can start and stop them at their convenience 
and a certificate of completion comes up after the participant 
completes the course and passes a quiz with a 70 percent 
learning rate. In the 2012-2013 reporting period, over 33,000 
participants registered and completed an online course through 
The Institute. We again are looking at exceeding this number as 
we compile our 2013-2014 report. All available free of charge.
    Individual technical assistance is available free of charge 
if a state agency or regional office requests that assistance 
for a specific district. We hire a consultant based on the area 
of expertise needed, go in and help that district come into 
compliance in whatever area they need.
    We have recently worked in two districts in Kansas and are 
presently working with the New York City with personal 
technical assistance to their district. These again all free of 
charge.
    Madam Chair, school meals have become a focus point for 
many in this country. The Institute and many other allied 
organizations provide great resources for school nutrition 
professionals as they work to ensure high quality, nutritious 
meals are being served to our school children.
    Although it has become more and more challenging to feed a 
consumer savvy population, it is important to realize what our 
job is within that school building. A child will learn life-
long eating habits during their tenure in school.
    In closing, I would like to thank the Senate for its 
leadership in providing this hearing and your commitment to our 
children and child nutrition programs. I am happy to answer any 
questions.
    [The prepared statement of Ms. Wilson can be found on page 
66 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Phil Muir, you are welcome. We are glad to have you.

 STATEMENT OF PHIL MUIR, PRESIDENT AND CEO MUIR COPPER CANYON 
                  FARMS, SALT LAKE CITY, UTAH

    Mr. Muir. Thank you. Good Morning, Chairwoman Stabenow, 
Ranking Member Cochran and Members of the Senate
    Committee on Agriculture, Nutrition and Forestry.
    My name is Phillip Muir. I am the President and CEO of Muir 
Copper Canyon Farms in Salt Lake City. Thank you for inviting 
me here today and for calling attention to the critical issue 
of school nutrition.
    I am passionate about making a difference in the nutrition 
of our school age children. Muir Copper Canyon Farms is a food 
service produce distributor that provides fresh fruits and 
vegetables to 52 rural and urban school districts in Utah, 
Idaho, and western Wyoming with a total enrollment of 450,000 
students. We are the USDA/DOD Fresh Prime Vendor for schools 
and for three Indian Reservations in these three states.
    We also provide schools with fresh fruits and vegetables 
for their Fresh Fruit and Vegetable Program, School Lunch, 
School Breakfast and the Summer Feeding Programs. Schools are 
about 15 percent of our company revenue.
    Muir Copper Canyon Farms is an owner member of PRO*ACT, 
LLC, which is a cooperative of 70 produce distributors across 
North America who leverage our purchasing power together to 
make the most price effective, quality assured, and food safe 
purchases possible. We are also a member of United Fresh 
Produce Association and I serve on its Nutrition and Health 
Council.
    We have a saying at Muir Copper Canyon Farms, ``Our School 
Customers Deserve the Best''. Success to us is students eating 
more fresh fruits and vegetables going home and telling their 
parents about the new fruits and vegetables they have tried at 
school and then helping to improve the family's eating habits.
    We consider ourselves more than just a supplier or bid 
winner. We are a partner with our school customers. Our goal is 
to be a solution provider through information, training, and 
consultation assisting schools to successfully implement all of 
the new fruit and vegetable requirements.
    Our staff meets with our school customers throughout the 
school year to discuss new fruit and vegetable items available, 
seasonality, buying local produce, and getting the best value 
for their limited budgets.
    We provide schools with our ``Fresh Produce Standards and 
Handling Guide'' as a training tool and provide schools with 
special training workshops, nutrition education materials, 
Farmer bios, and participate in district Kick-Off events. This 
is a collaborative relationship. I will highlight a few 
examples.
    For the Fresh Fruit and Vegetable Program, we worked with 
schools to lower labor and packaging costs while providing them 
with a wide variety of fresh fruits and vegetables individually 
portioned and in a system easy to deliver to the classroom.
    We have a booth at the Utah SNA show each year. In June, we 
demonstrated how schools could grill fresh vegetables in bite 
sizes. When one attendee said, ``We do not have grills in our 
schools, that is not realistic'', we showed them how the same 
results could be achieved using their school ovens. We have 
introduced new dark green leafy salad mixes to our schools that 
are more appealing, nutrient dense, and cost effective.
    From our experience, there are a few key points I want to 
make. Schools that were proactive in improving the 
healthfulness of their school meals early on, and made 
incremental changes, and offered nutrition education are not 
having problems or experiencing significant increased plate 
waste.
    Successful elementary schools that qualify for the Fresh 
Fruit and Vegetable Program had previously introduced their 
students to a wide variety of fresh fruits and vegetables as 
part of their lunch program. Students eat fresh fruits and 
vegetables when they are served in great tasting fruits and 
vegetables presented in an appetizing manner.
    The Dietary Guidelines for Americans calls for children and 
adults to ``make half their plate fruits and vegetables'' at 
every meal. How can you call school breakfast or school lunch a 
``meal'' if it does not include at least a half cup of fruits 
or vegetables? After all, it is only half a cup per meal.
    The produce industry is committed and stands ready to 
support school food service directors in successfully 
implementing the new fruit and vegetable requirements. Just 
last week, myself, and produce distributors, growers, fresh-cut 
processors, PRO*ACT, and United Fresh Produce Association 
hosted a Fresh Produce Pavilion at the School Nutrition 
Association's annual convention in Boston.
    Hundreds of school food service directors came to our ``Ask 
the Experts-Produce Solution Center'' to ask questions about 
writing Produce RFPs, to talk about how they could procure more 
fresh and vegetables. We also presented two educational 
workshop sessions on these subjects, all in an effort to assist 
the school nutrition community.
    We strongly support the continued implementation of the 
Healthy, Hungry-Free Kids Act of 2010 and maintaining the 
requirements that school children have access to a wide variety 
of colorful fruits and vegetables and select a half cup of 
fruit or vegetable at each meal. This is about improving the 
health of America's children.
    Thank you again for the opportunity to speak here today, 
and I am happy to answer any questions. Thank you.
    [The prepared statement of Mr. Muir can be found on page 57 
in the appendix.]
    Chairwoman Stabenow. Thank you very much to all of you for 
your very important testimony.
    Let me get into the questions I have. I have a lot of 
questions and we do not have a lot of time so I ask everyone to 
be brief so we can all get in as many as we can. I know there 
is a lot to say.
    Betti, Ms. Wiggins, let me start with you because we hear a 
lot of concerns about the difficulty with getting students to 
accept new healthy foods and I just think back to myself or my 
kids when they were in school and so on how things go up and 
down and new foods come in. It takes time to change and 
certainly we all know the change can be a challenge even in our 
own lives.
    But you said students are really enjoying the foods, 
particularly the produce in Detroit, and so I am wondering what 
you are doing differently that is helping students to want to 
eat fruits and vegetables.
    Ms. Wiggins. Well, what we did in Detroit, when the 2010 
Healthy and Hungry Free Act was passed, I did not wait until 
2014 before I started introducing kids. In Detroit, you have to 
do things early because of the stronger administrative 
standards that this guy was going to have when he came out to 
our program.
    We used things like the Fresh Fruit and Vegetable Program 
where we introduced those items to children. They ate them raw. 
They ate them in their natural state. Then we put them on the 
menu.
    We also implemented off of first to serve which is 
permitted, which is flexibility that the USDA provides to us. 
The kids do not have to take all the items. They just have to 
leave the line with a couple fruit.
    Also, budget permitting, we introduced our local foods. We 
introduced our local foods at a time. Being from Michigan, an 
apple was primarily used, Stabenow. We did introduce apples, 
all the different varieties of apples.
    Then if you started early, kindergartners then are fourth-
graders now. They understand that this is our lunch program. 
Fourth-graders then are eighth-graders now and they know this 
is what a school meal looks like in Detroit. Eighth-graders now 
are 12th-graders and hopefully when they are going on to 
college they would have had the experience of eating healthy 
foods.
    It is really about constantly and continuously educating 
our children, putting the items before them and using the 
various resources that people like the produce providers, our 
Department of Education provided to us so that kids get used to 
seeing these items on their trays.
    Chairwoman Stabenow. Mr. Muir, you talk about getting the 
best value for produce, reducing plate waste which we hear a 
lot of concerns about, and again across my life watching 
certainly my friends and I admit once or twice myself dumping 
things out. I do not think that is new that kids do that.
    But could you talk about how, a little bit more about how 
you are working with rural communities to address the concerns 
and challenges that have been raised?
    Mr. Muir. Yes, thank you. That is a good question.
    First of all, as far as the plate waste, we do work closely 
with those school districts to try to limit that. I think the 
best way to fight that is serving appropriate appetizingly 
prepared fresh fruits and vegetables that someone actually 
wants to eat.
    As far as rural schools are concerned, that is a particular 
challenge. As an example, we service Cokeville, Wyoming, which 
is about 153 miles, excuse me about 180 miles from Salt Lake 
City. 127 families in that community yet we get fresh fruits 
and vegetables to their school every week. It takes some effort 
and it takes effort on their part. We have assisted them in the 
educational pieces so that they can provide the same level of 
education and add fresh fruit availability as urban schools do. 
That is one example.
    Another one is in Pinedale, Wyoming. If you ever have been 
to Pinedale, Wyoming, it is not easy to get to. It is out in 
the middle of beautiful country. It takes a ride on three 
separate trucks to get there but we get produce there on a 
weekly basis to them too.
    Produce can be distributed to the rural schools but it does 
take an extra effort either on the organizations like 
cooperatives like Mr. Clements mentioned or on actually 
distributors providing educational material to help underpin 
those small school districts.
    Chairwoman Stabenow. Thank you, very much.
    Ms. Bauscher, I do not think time wise I am going to have a 
chance to really get into the issue that I want to but maybe on 
a second-round on the amount of time children have to actually 
eat which I know is an issue of concern that we need to talk 
about but I do want, at this point, just to, first of all, 
congratulate you on your convention.
    Our staff was there, I know Senator Cochran's and mine. It 
sounds like you had a great convention. I understand there were 
over 400 vendors that participated. Congratulations on that, 
and that they all demonstrated products that were compliant and 
that in order to participate all 400 had to demonstrate 
products that were compliant with breakfast, lunch, and 
competitive food requirements. Is that correct?
    Ms. Bauscher. Yes, we were very fortunate to have many of 
our industry supporters there to provide a variety of products. 
Again, industry has really stepped up to the plate to provide 
products that meet the fat requirements, that are lower in 
sodium, that are whole grain rich, and we are very thankful for 
that.
    I know in my visits with some reporters on the show floor I 
went straight to produce row to show them the many new products 
that produce vendors are offering us.
    Chairwoman Stabenow. Right.
    Ms. Bauscher. Again, our members support the increased 
quantities of fruits and vegetables, the wide varieties of 
fruits and vegetables; but many districts are struggling with 
the challenge of procuring those.
    Utah and the area serviced by Mr. Muir are very fortunate. 
But we are also concerned about again the waste and what is 
going in the trash can and how that if students could choose it 
if they like how that money might not go in the trash can but 
might be used for nutrition education which is very important 
in getting children to change their eating habits.
    Chairwoman Stabenow. I understand. I just think it is a 
good step forward and I congratulate you on getting 400 vendors 
that have already adjusted their production capabilities to 
meet 100 percent whole grain rich sodium one targets, 
competitive foods, fruits and vegetables. That is a good first 
step.
    We need to continue to work with you but I thought that was 
a very impressive first step. Let us, at this point, turn to 
Senator Cochran.
    Senator Cochran. Madam Chair, thank you very much for your 
leadership in scheduling this hearing. We appreciate very much 
the participation of our panel of witnesses.
    I want to ask Mr. Clements, as Director of our Office of 
Healthy Schools and Child Nutrition at the Mississippi 
Department of Education, what his experience has been with 
tools such as the menu planner. I am referring to the menu 
planner which was created at the state level to implement meal 
standards in schools throughout our state.
    What have been your challenges or successes that you could 
share with the Committee and the panel?
    Mr. Clements. Thank you, sir. I think the biggest success 
that we have had was we decided in 2010, we came up with an 
aggressive training schedule and we provided in 2012 and again 
in 2013 regional sessions for all of our SFAs so that they 
could get training from our office.
    I think that has been critical for again our small school 
districts to have the tools to implement the changes and, of 
course, like I said we have the online tool now and the printed 
versions are coming to them.
    The challenges that we have had, unfortunately, have been 
the complexity of the rules. The expression used in Mississippi 
sometimes, and I am sure you will appreciate this, coming from 
home, is we feel like we are drinking from the firehose 
sometimes.
    There have been approximately 150 policy memos that have 
come out to clarify the regulations since 2010. That has been a 
very big challenge for us to, one, get those at our level and 
decide how we are going to implement them and then get that 
training out to the school districts.
    Probably the last these there is, unfortunately, we know 
our partners at USDA work very hard and we appreciate their 
efforts but sometimes guidance will come out very close to the 
implementation deadline. We may get it out a few weeks or a 
month before it has to be implemented for that school year, and 
that is hard for us because we have to make our training on 
what we think will be in place at the time and we make our best 
effort there. But sometimes those policy memos will change at 
the last minute or granted we love some of the exemptions that 
have come out. They have been very beneficial. But sometimes 
when they come out at the last minute, it is hard for us to 
pivot with our purchasing cooperative. We have contracts that 
are in place sometimes years in advance and then to get the 
training out to our food service administrators.
    Senator Cochran. Thank you.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Brown.
    Senator Brown. Thank you, and thank you. This is a really 
important discussion and I appreciate all five of you weighing 
in the way you have. I think the testimony from all five of you 
has shown us as history illustrates that change is always 
difficult. You used the term that there is short-term pain, Ms. 
Wiggins, I think that is right. I think we acknowledge that but 
I also think that Dr. Wilson's comments about this creates 
life-long eating habits for young people as they become older 
people and how important that is.
    Thank you for all that you are doing to get through this 
and make such a change as you have made for such a good while, 
Ms. Wiggins, in the Detroit public schools and that, Mr. 
Clements, you are doing in Mississippi and you are all doing so 
thank you for that.
    A couple of questions. The first one for Dr. Wilson. I want 
to briefly mention the experience in the Cincinnati public 
schools. Cincinnati, our understanding, was the first school 
system, big school system in the country that started a school 
lunch program that was not government-subsidized in those days, 
115 or so years ago.
    Jessica Shelly, the food service director for Cincinnati 
public, told us that she serves 50,000 meals a day. She has 
made that at the salad bars. In every school increased 
participation in the breakfast program, worked with students to 
feature appealing healthy meals, done all this while finishing 
the 2012 school year with a significant profit.
    How do we, Dr. Wilson, replicate that success in other big-
city school districts and in other school districts generally?
    Dr. Wilson. Thank you for the question.
    I think that it can be replicated and I think it has been 
in many other districts as well. Jessica is another one that 
started early. She did not wait for the deadline. She started 
early.
    The USDA also has a voluntary program called Healthier U.S. 
School Challenge. It is a voluntary program that started before 
the meal pattern was put into play as regulation.
    Many schools got on board and started with the Healthier 
U.S. School Challenge, it includes nutrition education, the 
meal pattern, and physical education. Means Two actually has a 
training program, a training class for that.
    A lot of those schools that started early and got things 
rolling, they were able to do it. I know in my experience in 
Wisconsin, I left the district four years ago. I was in a very 
small rural school district to start my program; and fresh 
fruits and vegetables, all we did was put a mandatory you have 
to serve three colors. That was what my cooks were told to do. 
An increase in produce and fresh fruits and vegetables 
skyrocketed because it was served in an appealing manner.
    But we also hold a major city training symposium every year 
with The Institute where we bring all the 40 largest districts 
in the country together and we have these kinds of discussions. 
But I think you will find out in Dallas, Texas, it is working 
very well as well. Los Angeles is doing a really good job.
    There are really good role models I think that we could put 
out there. There is also a website that USDA holds through the 
National Ag Library called healthy meals. All these states like 
Mississippi that are doing these really great things that 
people can use because they were produced by state and federal 
dollars, they are all on those websites.
    Kansas is another one that does phenomenal work and was way 
ahead of the game where all of those resources are available to 
everyone free of charge, menus, ordering lists, how to 
purchase, procurement rules. All that kind of stuff is 
available if people know it is out there.
    Senator Brown. Thank you, Dr. Wilson.
    Ms. Wiggins, I would like to ask you a question. My wife 
and I about eight or nine months ago moved into the city of 
Cleveland. The zip code we live in actually had the highest 
rates for three years running a few years ago, not in the last 
couple of years, had the highest rates of foreclosure of any 
ZIP code in the United States. We know the challenges in urban 
areas and your city and my city.
    We have also seen, Cleveland is ranked in the top two or 
three of any cities, of all cities in the country in terms of 
urban gardening. I was specifically interested in your comments 
that what you have done with urban gardening.
    Talk more about that and what the city school food system 
has done with using community gardens and using urban gardening 
generally. Translate this into what we can do in Cleveland and 
others of us can do around the country in urban gardening, 
selling directly to the schools.
    Ms. Wiggins. Thank you for the question.
    One of the things that has been most positive, we at the 
Detroit Public Schools did not try to do it by ourselves. I 
reached out to numerous community partners. One of my best 
partners is the Detroit Eastern Market, who has access to 
farmers. I also reached out to Michigan State University, the 
best agricultural college in the country,
    Chairwoman Stabenow. I would agree with that.
    Ms. Wiggins. I thought you would.
    Through their extension, they provide me with applied 
agriculturalists and farmers. They provide me with information. 
Through that kind of collaboration, we started to plan. We 
created something called the Detroit School Garden 
Collaborative. I reached out to all the partners in the city 
that was engaged in that, taught our children to plan, educated 
our teachers. That has been fundamentally important to us is 
educating the teachers.
    We also created youth garden leaders, youth garden 
ambassador so that those products could be taken care of as 
they grow the gardens. When we develop our gardens, we insisted 
that three garden beds be used for items to go into the school 
meals program.
    My director of operations, Teresa Romeris, created 
something called the stop lights outlet where our kids actually 
plant zucchini, yellow squash and tomatoes. They learned doing 
that process. They go out and they harvest those things.
    You wonder how kids, can reduce plate waste, you get them 
engaged in it. When the kids bring it in, although you cannot 
feed the whole school, you can feed the class it came from. 
That information then is shown to other kids and there is a 
sense of pride.
    One of our biggest source of pride in Detroit Public 
Schools is that we now have a local restaurant who menus the 
Detroit Public Schools stoplight salad. The message is getting 
out and we are getting support.
    I worked with Cleveland, visited it several times to look 
at their gardening program. But it is a commitment to new 
nutrition standards that made me realize that it was going to 
be through nutrition education, community involvement, student 
involvement that we were going to make this work and that is 
why I see the new standards as a value proposition for our 
Nation.
    All that stuff supports what we are trying to do to stem 
childhood obesity.
    Chairwoman Stabenow. Thanks very much.
    Before proceeding, Senator Leahy asked to put a statement 
in the record which we will do without objection and a copy of 
his book that was put together by Vermont schools working with 
USDA, the new school cuisine.
    [The following information can be found on page 46 in the 
appendix.]
    Chairwoman Stabenow. He reminded us for members who were 
not here when we started that the pumpkin squares that you have 
in front of you come from Vermont, and we also thank Senator 
Casey for the mushroom meat, meatballs, and the apples and so 
on. We are eating well today.
    We will now turn to Senator Johanns and then Senator 
Donnelly.
    Senator Johanns. Madam Chair, thank you and thank you for 
holding this hearing.
    Let me, if I might, start with you, Ms. Bauscher. I found 
your testimony interesting and, I think, very candid and honest 
about the challenges you are facing.
    Like probably every member in the United States Senate, I 
visit a lot of schools. We all do. It is always a great place 
to get an honest assessment of things, as you know.
    When I visit schools and I open it up to questions, these 
days, over the last few years as a matter of fact, one of the 
common criticisms I hear from kids relates to the school lunch 
program. It may be about choices. It may be about food that 
they do not want to eat. It may be about they are not getting 
enough to eat. That sort of thing.
    It seems to me that whatever we do with all of our good 
intentions, if we cannot sell it to kids, we are fooling 
ourselves because it will go on their plate and then it will go 
to the trash bin.
    Here is what I worry about, I worry that we have thrown so 
much at schools that we are going to get to a point where 
participation goes down. Schools will back away from the 
program. Kids will back away from the program, and at the end 
of the day what we end up with is the poor kids eating the 
school lunch program because it is free and reduced and the 
rest of the kids who have the resources from home to do 
something else are going to do something else.
    Am I missing something here? Am I off base?
    Ms. Bauscher. You have just summarized many of the concerns 
that our members across the country have expressed. We want 
school meals to be appealing to all students. We have to feed 
all students because we do not want those students eligible for 
free and reduced meals to have any stigma attached to receiving 
meals.
    As I mentioned, members across the country have worked very 
hard. Many of us, I am with Betti, I was an early adopter with 
Jessica Shelly in Cincinnati. I made changes early and often. I 
cultivated community partners.
    But that is still a challenge to assure that our meals are 
appealing to all students. That is why I think some flexibility 
is important in assuring that students to continue to come to 
the cafeteria. We will continue to encourage them to make 
healthy choices and make the healthy choice the easy choice for 
them. But operators need a little bit of flexibility in order 
to assure that all of their students participate in the 
program.
    Senator Johanns. As each witness was testifying today, it 
just occurred to me how different the places are that you come 
from. There is nothing like Detroit in my State. I say that 
just simply because it is a bigger city. I mean it is just kind 
of hard to describe. Detroit is not like many of the 
communities I visit.
    Ms. Wiggins, would you agree that one of the things that we 
might be missing is the lack of flexibility between a Detroit 
and a Kearney, Nebraska?
    Ms. Wiggins. Sir, I do understand your question. But also 
as the former food service director in Ann Arbor, Michigan, 
where there was 3 percent free and reduced, my parents had the 
ability to have us, through either organization or community 
engagement, to put items on the tray.
    I think what you are missing, please understand that school 
meals is not a welfare program. It provides direct benefits to 
support education for all children.
    Now, those pay children that you are worried about, I also 
have pay children but those are the children of the working 
poor, the near poor, and the soon to be poor that bring in the 
junk food to the cafeteria. Those kids whose parents cannot 
afford to give them money every day are the kids with their 
heads down on the cafeteria table and missing lunch.
    Those are the kids now that I have been able to embrace in 
CEP or community eligibility. Community eligibility allowed me 
to bring more revenue into my program so that I could support 
the new nutrition standards.
    I had a per capita spending, because I am also a 
businessperson, I had a per capita spending of $1.98 per kid. 
With CEP my participation went up 16 percent and I had more 
money available to me. Now, my per capita spending is around 
three dollars because that is the flat reimbursement.
    We have to be savvy about what we do. In Ann Arbor, yes, I 
had to make food that was more a peeling. But it did not cause 
me any difficulty. In Detroit, I do not know if you heard my 
testimony, I am not concerned about the kids on the urban 
street corners. We do a real good job in taking care of them.
    I am concerned about the kids in Southfield where the 
poverty rate is about 40 percent. I am concerned about those 
kids. That is the reason we need to make sure that you be 
authorized this program so we can take care all of the 
children.
    Detroit is not any unique and different than the number of 
poor children in Appalachia, West Virginia, or Kentucky or out 
West on the Native American reservations. They are small 
Detroits and they had the same problems. Mine is just magnified 
because I am bigger.
    But the programs and legislation that is before you right 
now, the real authorization is not only a good start, it is a 
necessary start so we can talk about feeding all children.
    Senator Johanns. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Donnelly.
    Senator Donnelly. Thank you, Madam Chair.
    Ms. Wiggins, when you have conferences, when all of you 
have conferences, one of the things that has bothered me so 
much is the dramatic increase in type II diabetes that we see.
    Is that a subject that comes up at your conferences as to 
how your efforts can help to stem the tide on that.
    Ms. Wiggins. Senator, I appreciate that question. That is a 
subject that comes up in our district and was one of the 
reasons through the USDA wellness policy we have been able to 
implement new mill standards. When you see a six-year-old with 
type II diabetes or people grossly overweight, we know that we 
have to do something.
    Our educational leaders are just as concerned as I am as a 
nutritional leader and they support these new nutrition 
standards. It is not just confined to our school lunch ladies. 
It is really an issue that we all need to be concerned about.
    Senator Donnelly. I would think that is a subject that as 
you look at it, the direct action of your work can change the 
impact on the health of our children.
    Ms. Wiggins. Well, I agree with you, I mean I got truly 
interested when the Secretary of the Army came before this body 
and talked about how our kids were so grossly obese and I was 
shaking my head.
    Then that motivated me more than ever to work hard to 
implement the new nutrition standards. You have to be a savvy 
food service director. You have got to use all the tools. USDA, 
this government provides us with a lot of tools. 10 percent of 
my food comes from USDA commodities.
    Senator Donnelly. My friend, Senator Heitkamp, who is here, 
had to go preside over the Senate. One of the concerns she has 
is about equipment needs, that as you look at the equipment you 
have and the equipment that you are going to need, are there 
things that will help you in that process? I see Dr. Wilson 
shaking your head.
    Are there things we can do to help with equipment needs?
    Dr. Wilson. Well, I will just very briefly tell you in what 
we do across the country as well as in the training even with 
equipment and how to use different equipment that definitely is 
an issue. There are a lot of infrastructures in schools that do 
not have coolers and freezers and schools that were built 
without kitchens.
    As people begin to progress into this different sort of 
mode in feeding children in our school systems, updating 
equipment, getting new equipment is definitely a need out 
there. We used to have equipment grants years ago when I first 
started in the business and it was wonderful because you could 
get some really nice pieces of equipment. The equipment now can 
be universal. You can use it to steam, bake, roast, all in one 
piece of equipment. That is definitely a need in the country.
    Senator Donnelly. Mr. Clements, one of the things you do is 
try to leverage the purchasing power of smaller districts as 
well and try to get the best deal for everybody.
    How do you bring in your local farming groups? I am from 
Indiana and I think one of the most, one of the proudest 
moments for our farmers is when they see their products used in 
their town to serve meals to their kid.
    How do you bring that together? Do you need to put our 
local farmers in like purchasing groups or, I mean, groups that 
you buy from? What makes it easy for you to try to bring in as 
local as possible?
    Mr. Clements. We have had some biggest success with local 
farmers. We were very happy with that. We have relied very 
strongly on the Mississippi Department of Agriculture to 
connect us with local farmers and then to use the Department of 
Defense program to actually purchase through the DOD program to 
purchase from them.
    There are some challenges there. We have many small farmers 
who struggle sometimes with the cost of certifications to show 
that their food is safe for a verbal population.
    We have very few large farmers who can meet those 
requirements very easily. The irony of it has been, as we have 
seen farmers markets increase in Mississippi, it has actually 
pulled programs away from the school lunch program because 
often they can get a better price there. It is a struggle every 
year to find the products that will come in that we can afford 
on the program with our limited reimbursement but our State Ag 
department has been very helpful with that.
    Senator Donnelly. Well, I would think within the confines 
obviously of safety, the more options we also provide our Ag 
community with farmers markets, other places that they can send 
their produce to. As I said, in talking with farmers one of 
their great moments of pride is when they see their own stuff 
in their own high school or their own middle school making 
their own kids safe and healthy.
    Thank you all for your efforts on this and we really 
appreciate it to.
    Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    At this point, I am asking Senator Gillibrand to take over 
as chair. I need to go to the floor to speak on a bill we are 
going to be voting on in a moment. I will vote and then come 
right back.
    At this point we have Senator Hoeven who is next and I will 
turn the chair over to Senator Gillibrand.
    So thank you.
    Senator Hoeven. Thank you, Madam Chairwoman.
    This Committee is working on reauthorization of the Healthy 
School Lunch Program. We all want our kids to be healthy and 
have nutritious meals, but there is a disagreement on the 
flexibility that is needed for the school lunch program.
    I want to use the whole-grain requirements as an example. 
July 1, the new requirement kicked, and that provides that for 
all cereal grain foods that are served, they have to be 100 
percent whole-grain products. We are talking all bread 
products, crackers, pizza crust, taco shells, anything you 
could think of that is made with grains. It has to be 100 
percent.
    Ms. Bauscher, I am going to start with you. Again, I mean, 
you represent the 55,000 school nutritionists that actually 
have to deliver this program on the ground, not somebody here 
in Washington, DC, that can say in a theoretical world here is 
the perfect and that is what we want but somebody that has to 
deliver it every day to those children and deliver something 
that they will eat.
    So again, address the flexibility issue. Then I am going to 
come back and I have a question for each one of our panelists.
    Ms. Bauscher. Related to the whole-grain requirement, you 
are right, that effective July 1, 100 percent of our grains 
have to be whole-grain rich meaning that they are at least 51 
percent whole-grain.
    All of us are there at 50 percent, and many of us are 
beyond that. I will be at 100 percent, although there are some 
new items that my students will be trying this semester and I 
hope that they like them.
    Across the country, there seems to be that single item in 
most regions that some school food authorities have had a 
difficult time finding a product that is acceptable to their 
kids. Tortillas in the Southwest. Biscuits and grits in the 
South. Bagels in the Northeast.
    So again, I think most districts would not have any trouble 
probably even getting the 90 percent if there was at least an 
exemption for that culturally significant bread grain item that 
they like.
    Again, our manufacturers have stepped up and really 
produced some great items. Pasta, for example, whole-grain 
pasta has not been a problem in my district. My kids are coming 
around on the biscuits finally. But again, school food service 
directors have a hard time sometimes accessing the products 
that their students like through their current distribution.
    Senator Hoeven. All right. What I want to ask each of the 
panelists. Is it not reasonable then to allow some of these 
kinds of exemptions and flexibility, for example, for the whole 
grains requirement?
    If your answer is, no, if you are not willing to allow us 
to put in that kind of flexibility in the law, then are you 
going to commit to make sure that you have 100 percent whole-
grain products for every single lunch you have for the next 
year and beyond?
    I would like to start with Ms. Wiggins.
    Ms. Wiggins. Well, sir, as a card-carrying member of the 
School Attrition Association and having my president here still 
makes me very proud. One of the things that you have not talked 
about and some of the people that maybe you should have at this 
table are the manufacturers who have worked very hard in 
formulating those whole-grain products. Over the last three 
years they did like me. They did not wait. They started right 
away.
    When I talked to them at the school show last week, one of 
the things they said is that they support us maintaining these 
standards because if they have to wait and go back and 
reformulate that product again or change the standard again, it 
is going to cost me money.
    Yes, I am committed to it. I have the whole-grain pasta and 
the biscuits because even though I am from Detroit, we have 
that southern feeling in Detroit. We eat all of those kind of 
products.
    Senator Hoeven. You think it is reasonable and 100 percent 
of all grain products that you have for all your lunches for 
the next year will meet that requirement. I just want to know.
    Ms. Wiggins. The answer is yes.
    Senator Hoeven. There should be no flexibility.
    Ms. Wiggins. Sir, flexibility is all relative sometimes. 
The USDA is very flexible.
    Senator Hoeven. I am just asking, what about an exception 
right here for a school that is having trouble meeting that 
requirement should there not be some flexibility to allow them 
to say, look, we cannot get the whole-grain pasta so we may not 
be able to serve a whole-grain product 100 percent of the time.
    Should we have that flexibility or not in the program? I am 
using that as a specific example. I want to give everyone a 
chance to answer it. I have got to ask for kind of a short 
response.
    Ms. Wiggins. Okay. If it is reasonable, yes, sir.
    Senator Hoeven. Thank you.
    Mr. Clements. Speaking for our bid service administrators, 
we have just had our annual conference for MDE and speaking 
also from the person collective side, we would be happy to see 
some flexibility there.
    I think a good example is we had an official from USDA with 
us recently telling us about this great whole-grain biscuit 
they had and they later realized that, oops, it was actually a 
carryover from last year. It was really the white biscuits.
    While we do have an acceptable product on our bid, we worry 
about participation next year because it just does not have the 
same taste, texture, feel that the regular white products do. 
We would support some flexibilities, yes, sir.
    Senator Hoeven. Thank you.
    Ms. Bauscher, I think you already answered affirmatively so 
unless you had something else.
    Dr. Wilson.
    Dr. Wilson. I think there is some miscommunication because 
we just got information from USDA for our training that whole-
grain rich means it is 50 percent whole-grain and the rest is 
enriched and there is this information out there----
    Senator Hoeven. But 100 percent of what you serve has to be 
at least at that threshold. I think we are clear on that.
    Dr. Wilson. Yes.
    Senator Hoeven. Thank you.
    Dr. Wilson. There is pasta flexibility right now. The memo 
did go out. There is flexibility on pasta.
    Senator Hoeven. Only for pasta?
    Dr. Wilson. Correct. There is also the ability for you, for 
instance, I am from Wisconsin but I live in Mississippi. They 
always tell me, Katie, you better fix that grit thing because 
we do not want to serve whole-grain grits.
    There is the ability to use grits in the program but are 
not counted toward the green product.
    Senator Hoeven. You think there should be flexibility or 
you should have a rule, a 100 percent and that is it? That is 
what I am driving at, Doctor.
    Dr. Wilson. From the scientific standpoint and from the 
nutritional standpoint, I would say we need to go with 100 
percent whole grains.
    Senator Hoeven. No exceptions?
    Dr. Wilson. Right.
    Senator Hoeven. Thank you, doctor.
    Dr. Wilson. Thank you.
    Senator Hoeven. Doctor, then you would also commit to have 
a 100 percent grain products at least 50 percent whole-grains 
in all your lunches no matter where you go, no matter where you 
eat, no matter what restaurant for the next year and you do not 
see that as a hardship in any way, shape or form?
    Dr. Wilson. No.
    Senator Hoeven. Because you believe there should be no 
exceptions.
    Dr. Wilson. I was doing it in Wisconsin four years ago. 
There were whole-grain products then.
    Senator Hoeven. Thank you, Doctor.
    Mr. Muir.
    Mr. Muir. This is a little bit out of my area of expertise, 
which is fresh fruits and vegetables. However, I do have some 
experience here in that several of my school districts came to 
me two years ago and said we cannot find whole-grain flour 
through our normal grocery suppliers. Will you find it for us?
    We found it for them and deliver it to those school 
districts now and have been for two school years. They are 
proactive and after it.
    We look at these standards perhaps from the wrong 
perspective that they are a maximum. These standards are really 
the minimum requirement that we all should be meeting if we 
want to solve the obesity problem. Therefore, I think we ought 
to maintain the standard and we need to redouble our efforts to 
work with those school districts that are struggling with the 
whole grains.
    Senator Hoeven. Allow reasonable exceptions or not?
    Mr. Muir. I would say let us stay the course.
    Senator Hoeven. So no exceptions?
    Mr. Muir. No exceptions.
    Senator Hoeven. All right. Thank you, Mr. Muir, and again, 
you feel that you could accomplish the same thing and will over 
the next year. 100 percent of the grain products you eat will 
be at least 50 percent whole grains.
    Mr. Muir. Yes.
    Senator Hoeven. Okay. Thank you.
    Thanks to all the panelists. I appreciate you being here.
    Senator Gillibrand. [Presiding] Thank you.
    Thank you, Ranking Member Cochran, for hosting this 
hearing.
    I am really worried about the obesity epidemic. I am really 
worried about it. The food we serve to the 31 million students 
who participate in school lunch programs is an important 
investment in the future of our country. I think this 
discussion is invaluable.
    Obesity statistics are staggering. One in three kids in our 
country are now obese or overweight. Just think about that for 
a minute. One in three kids. That is an extraordinarily high 
number. We have schools, in preschools and kindergartens in New 
York State where 20 percent of the children entering 
kindergarten are obese.
    We have an issue about lack of information, lack of 
understanding, lack of nutrition standards, access to healthy 
foods that we have talked about in this Committee for a while. 
I think that is why this debate is so important.
    According to the American Heart Association, obesity in 
adolescents costs our country $254 billion a year. $208 billion 
is lost in productivity, $46 billion in direct medical costs.
    We also have staggering hunger in our country. One in five 
kids lives in households that struggle to put food on the 
table. A recent survey shows that 73 percent of teachers report 
having students coming to school hungry.
    For these kids the hot meal they get at school might be the 
only food they eat that day. We need to invest in these kids by 
investing in the food they eat. The $2.92 that we currently 
invest in these free school meals is not enough. After labor 
and utility costs are paid, only about a dollar is invested in 
actual food.
    The Institute of medicine has reported that in order for 
these school lunches to be nutritious, including adequate 
fruits and vegetables, low-fat dairy and whole grains we need 
to invest an additional $.35 per meal. I am hoping that the 
members of this Committee will join me in fighting for this.
    I wish Senator Hoeven did not leave. Of course, kids like 
non-whole grains. Yes, that is what they prefer. They like 
sugar even more. If you give your child a choice, would you 
like to have sugar for lunch or would you like to have fruit 
and vegetables, they are going to pick sugar. It is what they 
like. Their taste buds loved it.
    But we have to be the adults in the room. You just do not 
give kids the foods they want. You have to give them and teach 
them how to eat well for their whole lives and that takes 
leadership, it takes determination and it takes creativity.
    I love the fact that you told your school district, pick 
three colors every day. My children when I was teaching them 
about nutrition when they were four, five, and six, that is how 
we did it. How many colors can you put on your plate? They 
loved that.
    Because I fed my children steamed vegetables as children, 
they only like steamed vegetables. They do not want butter on 
it. They do not want cream. They do not want cheese on it. They 
want steamed vegetables.
    They have been eating fruit at every meal since they were 
babies. My kids as a consequence because they are given, 
introduced healthy foods at every meal, they prefer healthy 
foods.
    For a lot of these kids, they are not getting healthy foods 
at home. They are getting refined carbohydrates at every meal. 
A typical meal will be a burger and fries. Of course, they 
prefer burger and fries. That is what they have been fed since 
they were little.
    We have to do more. I feel that, yes, to Senator Hoeven, it 
is easy to have flexibility. People like the grits like they 
like the grits that they have had since they were a kid. But 
let us not serve refined foods at lunch. Let us actually push 
them to eat something healthy that makes them healthy and reach 
their full potential.
    When a kid is obese, he does not reach his full potential. 
He cannot concentrate in class. He is often made fun of. He has 
low self-esteem. He does not reach his full potential. She does 
not reach her full potential.
    I am grateful that all of you have thought outside the box 
figuring out how to solve these problems, meet nutrition 
standards. I do not want to back off these nutrition standards. 
Let us figure it out. We can figure it out.
    I am worried about SNA's goal to roll back requirements for 
schools to serve healthier foods.
    Ms. Bauscher, is that a true statement, is that their goal?
    Ms. Bauscher. Our goal is not to roll back the 
requirements. Again, we fully support the increased quantities 
and varieties of fruits and vegetables that have to be offered 
to our students and many of us, all of us are encouraging 
students to select fruits and vegetables by preparing them in 
attractive ways and making a wide variety of available.
    We also support at least 50 percent of the grains being 
whole-grain or maybe somewhere in between 50 and 100. But again 
you said it. Our students are not seeing some of these foods 
outside of school.
    Senator Gillibrand. Correct.
    Ms. Bauscher. We also have students that go through the 
line that take it because they have to and then do not eat it. 
If they do not eat, they are going to go home and maybe not 
have a meal and still be hungry.
    Senator Gillibrand. Kids will eat if they are hungry. I do 
not agree, if my son got to choose his lunch, he would choose 
candy and cookies. He would choose it. That is what he would 
choose. But by the time it is lunch time, he is so hungry he 
will eat what I put on his plate.
    I do not agree that kids who are hungry do not eat. I do 
not agree. A hungry kid will take an apple. A hungry kid will 
take some pasta, will take some vegetables. Just because it is 
not their favorite or tastes funny, they are going to eat it. 
If you offer low-quality food, they will prefer low-quality 
food. It tastes better. Sugar, salt tastes great.
    Ms. Bauscher. We are not offering low-quality food. We are 
meeting the calorie requirements. We have eliminated trans fat. 
We are meeting the saturated fat requirements, and we are 
reducing the sodium.
    We will be on board with the target one sodium requirements 
that went into effect July 1. But it is all about allowing 
students some time to catch up. You do not turn their taste 
buds around on a dime, and we are encouraging them to take 
healthy choices.
    Senator Gillibrand. Okay. I think we need more money in 
this program. Do you think we need more money in this program?
    Ms. Bauscher. Yes.
    Senator Gillibrand. Okay. Good. During the last 
reauthorization, I supported a $.35 increase in the 
reimbursement rate rather than 6 percent.
    Would this help all of you achieving your goals?
    Mr. Clements. Yes.
    Senator Gillibrand. All of you here, yes?
    [Nodding heads in the affirmative.]
    Senator Gillibrand. Okay. I would like you to help us do 
that because you are the advocates. You are the experts. We 
have to inform Congress that $2.92 is not enough and whole 
foods, whole fruit, whole vegetables can be affordable as we 
increase access.
    But I can tell you, when you have a low-quality vegetable, 
I mean, how many people would prefer steamed green beans over 
canned green beans? Everyone. There is nobody who prefers 
canned green beans over steamed green beans. They are 1 billion 
times more tasty and delicious in their whole form.
    Let us focus on how we get the fresh whole fruits, whole 
vegetables and it costs a little more. It is cheaper to serve a 
chicken nugget. But if we could have roasted chicken or grilled 
chicken, it is more healthy.
    It does cost a little bit more. I urge you to please help 
us achieve that goal by getting us to inform Congress how 
important a little bit of money, and I had a lot of other 
questions about equipment that I will submit for the record.
    But I agree there is a grant program that we had in the 
past. That I would like to reinstitute. I had a bill to do 
exactly that. It is not a lot of money. $35 Million in grants 
so that school districts can apply. So they can have the 
equipment they need to actually serve these fresh fruits and 
vegetables and whole grains and lean meats.
    I think we can agree on that too. It is not a lot of money. 
If you go back to the cost, Senator Thune, you did not hear my 
earlier statement but the cost would be in the 200s of billions 
a year in missed opportunity and less performing, a huge drain 
on the economy. I think the small amounts of investment has 
enormous returns on term.
    Senator Boozman.
    Senator Boozman. Thank you very much. I appreciate you all 
being here and appreciate the hard work. I was on the school 
board for seven years and I understand how difficult it is for 
those of you who are in the trenches.
    Some of you have figured this out. We have a problem though 
because the vast majority of your colleagues have not figured 
it out and I have visited with a bunch of people that--lunch 
personnel over the past year and they are very frustrated.
    The things that I hear about are the waste, the expense, 
fear of unfunded mandate which we have already and for that to 
grow, and then also kids being hungry.
    So again, like I said, it is great that you all have it 
figured out to some extent but a bunch of your colleagues have 
not and again are very, very frustrated.
    Mr. Muir, as Ms. Bauscher mentioned in our testimony, we 
know the price of fruits and vegetables is subject to drought, 
floods, and fluctuations in transportation costs based on the 
growing season.
    How do you cope with the variability? How do you handle the 
supply of fresh fruits and vegetables when they are out of 
season?
    Mr. Muir. We work with our school districts in trying to 
help them create an annual calendar of the commodities they are 
going to serve during certain periods of time.
    We steer them away from things we already know like when a 
production cycle is gapping and the price of that product will 
be going up. On many occasions if there is a weather event with 
a product, a fresh fruit or vegetable and the price spikes, we 
immediately notify our school districts that, hey, I think we 
need to make a substitution here.
    Under the DOD fresh program, when our prices are posted a 
week in advance, it is very clear that most of the school 
districts are savvy to that; and when they see a spike in 
price, they call us and they move away for a substitute 
product.
    We are not spending $20 for something that is normally 
eight dollars. We try to do that with all of our school 
districts.
    Senator Boozman. Very good. I know that your firm sources 
fresh and specialty products from around the world for your 
customers. How do you work with the school food authorities to 
comply with the National School Lunch Act buy American 
provision that requires the purchase of domestically grown and 
processed foods to the maximum extent possible?
    Mr. Muir. Under the system that the DOD fresh has which is 
a complete online system that is called Favors, we are not 
allowed to post non-domestic items on that list. It is very 
regulated. It is difficult for them to make a mistake there. I 
think we can provide them a wide variety of fresh fruits and 
vegetables all domestic. Sometimes not all year but we can do 
it during the school year.
    Senator Boozman. Very good. Thank you.
    Ms. Wiggins and whoever would like to answer. Some of you 
have been doing this for a while. Are you seeing any reduction 
in obesity in your children?
    Ms. Wiggins. Yes, you are absolutely right I have been 
doing it for a while. But what I also noticed, I see some 
better eating habits. One of the things that we also need to 
consider is we need to put exercise and gym and some of the 
other things that burn calories because calorie in, if you do 
not put them out you are going to get overweight.
    But the better eating habits where kids, I really get 
impressed when my kids are opting now for a fresh apple as 
opposed to potato chips. We are seeing better eating habits.
    Do I have any empirical evidence? No, but I can tell you 
this plate waste that everybody is talking about I have not 
experienced it that much in Detroit.
    There are other things in this reauthorization of the 
Healthy and Hunger Free Act that is going to help us help the 
people who are responsible, the new training requirements.
    Sir, in school districts, the level of education 
sophistication among the people who are delivering the program 
are not equal.
    I have a business background. I understand. I run a small 
business. But when you get in these small districts, people do 
not have these skills and the ability to necessarily manipulate 
their menus to do things.
    I respect in this authorization of 2010, the whole thing 
about education, the whole thing about equipment, the support 
that you gave us.
    Senator Boozman. Thank you. I have to let Senator Thune go. 
But again, do not misunderstand. I am very supportive of the 
program but we do have a problem with many of your colleagues 
not understanding it, being frustrated. It has got to be fixed, 
and I think the program has to be tweaked to make it as 
effective.
    The comments you made, Ms. Wiggins, are excellent in the 
sense that the other thing that we cannot do is just to focus 
on this. This is not the only answer. You know, you mentioned 
the exercise and things like that. That has got to be a huge 
part of it also.
    Thank you very much for being here.
    Senator Gillibrand. Senator Thune.
    Senator Thune. Thank you, Madam Chairwoman. I appreciate 
all of you making time. Thank you for sharing your insights.
    This issue is about standards. I think it is a really 
important issue. It is one that I think most of us hear a lot 
about, standards that in some cases are leading to food being 
not eaten, tossed aside, also standards that are creating a 
significant financial burden on school systems as well.
    I have heard from school administrators in my State of 
South Dakota who tell me that the higher cost of food needed to 
meet the USDA standards has resulted in financial loss and even 
in the release of school employees just so that the school can 
meet its financial obligations.
    As we look at this issue I think we have to remember that 
there is not any federal law, regulation, or policy that should 
be considered a gold standard and not to be changed. I think 
the responsibility of this Committee as we discuss the 
reauthorization of the child nutrition laws is to approach this 
important mission with open minds and with a spirit of 
cooperation and not be unduly influenced by the position of 
those who support current policies and standards and who are 
not open to meaningful change.
    I want to direct a question, if I might, to you, Ms. 
Bauscher, and that has to do with an issue that is a little bit 
specific to my State of South Dakota but I am sure shared by 
others around the country, because I have heard from students, 
parents, school administrators, child nutrition directors, food 
service managers about the impact these standards are having.
    But there is this particular letter that I would like to 
talk about and that is one I received from 200 students who 
tend the Pierre Learning Center in Pierre, South Dakota.
    They want to be able to have traditional foods that are 
part of their culture served once a month in the school 
cafeteria but because of the inflexibility of the new 
nutritional standards, they are not able to do that.
    My question is how can we work in this reauthorization to 
ensure students are receiving healthy nutritious meals while at 
the same time allowing flexibility to meet these types of 
requests. I would say especially in areas in Indian country and 
areas that I represent and other members as well represent 
around the country.
    Ms. Bauscher. Well, in school districts around the country, 
we are increasingly serving a very diverse student population. 
In my own district, there are over 120 languages spoken. The 
importance of their own eating heritage is very important for 
them and we look for ways to incorporate those foods.
    Again, I would be hopeful that during the 2015 
reauthorization we would also look at that and include 
reasonable flexibility that would allow students to enjoy the 
foods of their culture in the school meal program.
    Senator Thune. Thank you. Dr. Wilson, do you believe 
schools are getting consistent and adequate amounts and types 
of technical assistance in order to successfully implement and 
meet the current requirements?
    Dr. Wilson. Well, I think we are just beginning with 
technical assistance. Like I said, the resources have been out 
there for a long time.
    I think what has happened is we probably put the cart 
before the horse because, as Ms. Wiggins mentioned, that in 
some states there is absolutely no requirement for your 
educational level to run a school nutrition program.
    In some states, it is just up to the local district who 
should be running the program irregardless of the size of the 
program. I know of some districts that are really in trouble 
but part of the problem is not that they do not want to it is 
that the person leading the program is not able to.
    The whole issue of professional standards is really, really 
important because you can make all the rules you want; but if 
you do not understand how to do them, then that does not help.
    But helping with professional standards and having people, 
and it is too bad we have to require it but obviously in some 
districts they do not do it. I know that I have worked in a 
very small rural district, only 1700 kids.
    Back in 1990, they were throwing away 18 gallons of milk a 
day in the elementary school. We decided to do something about 
that and to be proactive. It was not because of the kind of 
food we were serving. It was the milk they were dumping in a 
bucket to throw away, and that was back in the early 1990s. So 
that is nothing new.
    There has got to be proactive ways to deal with food waste 
and find out why is it being wasted. We switched in our 
district and we did recess before lunch. It had a huge impact 
on food waste. Huge. Kids were not worried about whether they 
were going to go out and get the soccer ball or not.
    I think there are lots of anecdotal things going around as 
to the blame as to why things are happening in the school lunch 
program, but I do not think we have done any good digging as to 
what really is occurring.
    As far as professional standards is concerned, we do need 
to have an opportunity for people to be educated. Many people 
say, well, the small districts cannot do it.
    Well, in the nursing home situation in this country, you 
are required to have a registered dietitian oversee your 
program. Now, I am not saying every school district needs a 
registered dietitian. But the very small nursing homes in every 
rural county in this country have to have somebody that comes 
in, either once a week or once every other week that does some 
oversight for them, helps them with menu planning, helps them 
with purchasing.
    Those are the kinds of models that are working very well 
for nursing homes. There is a way. In my district of 1700, we 
increased the participation. We put a fund balance in place. My 
superintendent loved it because of the things that we did, and 
one of the things that was back in the 1990s was putting better 
standards in place because I come from a nutrition background.
    It is doable, but we are just beginning this change and I 
think it is going to take up few years for this to really see 
the outcome of us moving forward with this.
    Senator Thune. Quickly, Ms. Wiggins, anything to add to 
that?
    Ms. Wiggins. I am very sensitive to ethnic preferences 
among children. I am from Detroit; and contrary to popular 
belief, I have a large Middle Eastern, I have a large Hispanic, 
and a few Lithuanians here and there but African-Americans as 
well.
    We do serve ethnic foods. But you cannot serve them 
healthy. I will just give you an example. Black people really 
love collard greens and a lot of fat. But now we have changed 
it since we knew how much it impacted our health, thanks to 
diabetes and overweight, that now we can enjoy, my kids on soul 
day, we have black-eyed peas, collard greens, sweet potatoes, 
and corn bread but they are all within the guidelines of the 
USDA.
    It is not like mom's but it is an awareness that food can 
be eaten.
    Senator Thune. Good. Thank you.
    Madame Chairman, I guess we have a vote on so thank you and 
thanks to all of you for being here.
    Chairwoman Stabenow. [Presiding] Thank you very much.
    I appreciate Senator Gillibrand chairing the meeting while 
I did, in fact, go speak and vote. I know we have Senator 
Klobuchar coming back wanting to ask some questions. I believe 
Senator Gillibrand wants to ask a second round as well.
    Let me proceed. There are so many different pieces to this 
and we need all of your input and help this week to move 
forward in resolving challenges and supporting schools and 
making sure that children get what they need.
    I mentioned in the first round but did not have a chance to 
get into it, Ms. Bauscher, the concern that I have heard from a 
lot of food service directors about the amount of time children 
have to eat.
    In fact, I have heard from students that by the time they 
get to the line, they have five minutes or whatever so they 
take a couple of bites and the food goes in the trash because 
they do not have enough time.
    I know this gets into a broader question of the school 
districts and how we defined lunch and so on. But I wonder if 
you could tell us a little bit more about this issue of time 
and the impact on it and whether or not SNA is engaging school 
boards or local leaders to find solutions to this?
    Ms. Bauscher. Time to eat school lunch is a serious 
concern. In my own district as school administrators are 
pressured to increase test scores, they shave minutes off of 
the school lunch period in order to increase the instructional 
time.
    Again, the staff at each location is based on the number of 
meals served at that location. I do not just have the ability 
to add two or three people so I can increase the points of 
service and serves them quickly.
    We are looking at ways that we can increase the number of 
students we serve and decrease the amount of time that they 
spend in mind. It is an issue that we have discussed in the 
association and that we do address in conferences and webinars 
and other types of material.
    But it is really a decision we can have some influence on 
and try to educate school administrators about the importance 
of time to eat lunch, but an area, of course, over which we 
have no immediate impact.
    Chairwoman Stabenow. I appreciate that. We would like very 
much to work with you on options. I know there is some desire 
or some areas that have done or are talking about pilots where 
children are even eating breakfast in the classroom, other 
options and so on.
    We have some things that hopefully we can do to help 
support you and the tools that relate to that because I think 
that really is a very important issue for students.
    Also let me just ask you, because we hear so many different 
things depending on the school, depending on the state and so 
on. I know in Kentucky, your home State, that Kentucky was 
nearly 100 percent compliant with all these standards last 
year. I want to congratulate you as being an early adapter in 
your school and the work that you have done.
    When we look across a state like Kentucky with a lot of 
rural communities and so on we see Jack Miniard in Harlan 
County or Mary Koon in Hardin County or Lisa Simms in Daviess 
County talking about their successes in influencing the 
standards and they have indicated they do not see challenges or 
would not ask for a waiver and so on.
    Yet we hear different things in different schools about 
what is happening. I am wondering what is different in these 
schools from other schools that we are hearing about and how do 
we help the schools that are having challenges but also 
recognizing the schools that are saying they are moving ahead?
    Ms. Bauscher. A lot of it comes down to the support staff 
in the school nutrition program. I am very fortunate that I 
have a number of people on my staff that are assigned specific 
duties related to our school meal program.
    I can tell you that since the Healthy, Hunger Free Kids Act 
went into effect, I have had to take one key position, the 
coordinator of food procurement and menu planning and actually 
split that into two positions.
    I think Mr. Clements alluded to the complexity of the 
requirements. So that I have one person who now concentrates on 
food procurement and writing the specifications and assuring 
that students have an opportunity to sample new product. I have 
another person that works on the menu planning and does all of 
that and takes care of special dietary needs.
    That points to the complexity of some of this and I think 
more districts are better equipped to handle that. Katie 
alluded to the fact that not all school nutrition directors may 
be equipped with the skills necessary to handle the many 
changes that have occurred and the complexity of those changes.
    I will tell you a story. I attended required food service 
director training in Frankfurt not long ago. Small groups, and 
there was a new director there. He has been a school food 
service director just two years and he formerly worked at the 
State Department and he told us, I am so overwhelmed because he 
is trying to do everything himself. I focus on one thing this 
year and I will focus on another thing next year.
    Again, people are feeling overwhelmed in terms of trying to 
handle all of the changes because there have been a lot of 
changes in a relatively short period of time for many of us.
    Chairwoman Stabenow. Thank you. It sounds like it would be 
helpful if we could make sure that you have the resources you 
need as well so you were not having to pick.
    Finally, and then I will turn it over to Senator Klobuchar. 
Let me just ask, Mr. Clements, and again congratulations on 
what you have been doing in Mississippi, again, very different 
than Detroit in Kentucky and Utah, difference, Wisconsin 
certainly.
    But we are seeing positive things being addressed. I know 
that Mississippi has seen a decline in childhood obesity and 
congratulations because I know that your work on healthier 
school meals has really made a difference in children's lives, 
literally them living longer. We should feel very good about 
that.
    You have implemented the nutrition standards for 
competitive foods well before the national policies were 
developed. I wonder if you could talk about the successes and 
challenges you have had on the state competitive food standards 
and the health benefits that you have seen as a result of the 
changes.
    Mr. Clements. We have been very fortunate in Mississippi in 
many respects. We have a legislature and a State Board of 
Education who are both very cognizant of the challenges that we 
have with obesity in particular in our State.
    As far back as the 1980s, they implemented an aggressive 
competitive food rule policy, nothing could be sold on school 
an hour before any meal service. That was designed to protect 
the school lunch program and the school breakfast program.
    Beyond that, we do not have what most schools have as far a 
al carte sales. Students must pick up a complete reimbursement 
meal to purchase any extra foods. Some of those pieces have 
been in place for many years.
    Then really in 2007 our State legislature and our State 
Board of Education addressed competitive foods again. We put in 
very stringent vending policies that actually are closely 
aligned to the new Smart Snacks rules.
    Our schools did see some loss of revenue there but we have 
also seen some very good things going on with vending. We have 
seen very good compliance. It took them a little while to get 
on board. There was a transition period but we have been very 
fortunate. Our schools have adopted those and they have 
accepted them greatly.
    Chairwoman Stabenow. Thanks very much.
    Senator Klobuchar.
    Senator Klobuchar. Well, thank you very much, Madam Chair, 
and thank you. I am sorry I had something else this morning and 
I really appreciate that the hearing is still going on.
    I think this is something that is really important to all 
of us. I know it is something you are passionate about. It is 
something we care a lot about in our State and I supported the 
Healthy, Hunger-Free Kids Act in 2010 when it passed on a 
bipartisan basis to overwhelming support.
    Our schools are a critical partner in this effort and we 
have made some progress. We have not been able to say that for 
a few years but we have made some progress in at least 
stabilizing the rate of childhood obesity in part because of 
the reforms that have been enacted.
    I think we all know that there is work to be done. We know 
it has been acknowledged up here that change is not easy and 
that preventing childhood obesity will not happen overnight.
    I do not think we should be rolling back or postponing the 
standards right now but I think it is always good to hear what 
people have to say. Also coming from an Ag state and heading to 
my farm fest at the beginning of August here, I wanted to talk 
a little bit about the issue which I know the has been involved 
in all of purchasing local and regional Ag products for school 
meal programs, the Farm to School Program.
    I think it is a good bridge between our Nation's farmers 
and our children. According to the USDA Farm to School census 
data, Minnesota school districts support spending 12 percent of 
their school food budgets on local products.
    Could you provide maybe, Ms. Wiggins, some insight into how 
you see this practice as a long-term strategy to support kids 
and also the agriculture community?
    Ms. Wiggins. I am happy to report the Detroit Public 
Schools spent 22 and a half percent of our produce dollars on 
Michigan-grown produce.
    I think that long-term strategy means that we have to 
develop some supply chain. A little rural school, I have to 
tell my story. I am from a little farming town in Michigan, 
called Whittaker. I went there for a meeting and I know the 
local farmers.
    They said, well, Betti, you are in Detroit now. I want to 
get my food into your schools and I said, no, I cannot. Why? I 
need one school I said I got 131.
    The way that we handle, so I had to disappoint people I 
grew up with. But the way that we handle getting fresh fruits 
and vegetables into our school at the local level is we are 
going to have to develop some supply chains. We are going to 
have to develop some cooperatives.
    One of the things that the State of Michigan does when you 
talk about how we can help one another, we have something 
called an alternate agreement whereby I can provide services to 
small school districts, one and two that do not have the 
capability or the education or the equipment or even the time 
that I provide my services and I put those districts in with 
the Detroit Public Schools.
    When the Detroit Public School kids get that $.14 apple 
that our Senator is always proud to talk about, if those small 
schools were not with me, that Apple would cost them $.40. The 
ability to collaborate and cooperate is what is going to extend 
this program and allow us to add those important products.
    Senator Klobuchar, I just laugh. St. Paul, the director of 
St. Paul and the director of Minneapolis yesterday that we were 
in a meeting trying to form a collaborative so that we could 
create a larger market basket so that we could go out on the 
market and appear more attractive.
    Manufacturers, they are not giving us food, and I do not 
have a problem with that. But if what we can do as a 
collaborative will ensure that my farmers in Michigan and 
Minnesota do not have to plow under products that my kids could 
eat, that we consider ourselves successful.
    Senator Klobuchar. Again one other thing that we did, or 
our agriculture extension service at the University of 
Minnesota did a study and it did not surprise me because we 
have seen this with global products in general.
    It is why our Red Wing shoes is doing great. People are 
really interested in being part of something that is local. 
What we found in the study at the University of Minnesota that 
there was a 3-16 percent increase in school meal participation 
when there was a farm to school program because I think and I 
know there has been supply chain issues.
    I have heard about some of this but I do think we have to 
remember if we can work this out it actually not only is good 
for the kids it actually increases their interests and their 
family's interest in being part of this because they see it as 
part of the local community.
    I will just ask one more question here with my time here of 
you, Ms. Bauscher. In your testimony and I know here earlier 
you talked about school districts that have had trouble finding 
acceptable foods that can meet the new whole-grain rich 
standards.
    How many schools have taken advantage of a two-year 
flexibility provided by USDA on whole grains rich food in order 
to allow time for the industry to develop workable products?
    Ms. Bauscher. I do not have an answer to that question. I 
know in talking to colleagues from around the country as 
recently as last week in Boston, I have talked to districts who 
intend to apply for the waiver and I have talked to districts 
that do not have a need for the waiver, including my own.
    Sometimes it can be districts that are adjacent to one 
another. I do not know how many have actually applied.
    Senator Klobuchar. Okay. That would be helpful to know 
because there is that possibility out there because I think 
people try to be as flexible as possible.
    Mr. Clements, just one more question. Outside of the new 
standards, how do state agencies and schools determine what 
products will be included in the vending machines and the a la 
carte lines?
    I worked very hard on his vending machine issue. I care a 
lot about it. After having my daughter in public school her 
whole life and watching what was in some of the vending 
machines that some of the kids who were in after-school 
programs like she was and what they were eating. What methods 
of evaluation have been used in the vending machines for the 
Smart Snacks Program?
    Mr. Clements. Again, back to 2007, we had policies in the 
State that were very similar to the new smart snacks. We at the 
state agency provide that service to the school food service 
authorities in that they can send us products. We make the 
evaluation for them and they do not have to have any technical 
skills, so to speak.
    We have that expertise at our office. We publish the list. 
If they have individual products, they can send us the 
information. We get it back to them. Of course, there are all 
online calculators now. If they want to go through, they can 
use those. We encourage that if they would like to but we are 
happy to provide that service to all of our schools.
    Senator Klobuchar. All right. Thank you very much.
    Chairwoman Stabenow. Thank you very much, Senator 
Klobuchar.
    Again, thank you for presiding over the Committee today, 
Senator Gillibrand.
    Senator Gillibrand. Thank you, Madam Chairwoman, and thank 
you again for holding this hearing.
    I think this is a vital issue because of the obesity rates 
in children and how important it is for their health and well-
being to feed them good foods.
    I want to continue a little bit along the lines that 
Senator Klobuchar started. What we have done, this is for Mr. 
Phil Muir. Food hubs are increasingly popular across New York 
State and vary from not-for-profits working to bring local 
foods to under served areas to large not-for-profits serving 
hundreds of businesses and institutions.
    For example, New York City wholesale green market as well 
as for-profit businesses improving access through direct sales 
to individuals. My team works very closely with different food 
hub organizations and has helped to secure grants, loans, and 
other services that have advanced the hub's mission.
    Could you speak to the importance of food hubs and how it 
ties the school nutrition in the work that you do?
    Mr. Muir. Food hubs--an excellent question. Food hubs are 
playing an integral role in getting locally grown produce to 
schools and other end users.
    The big issue, of course, is that a lot of these local 
growers are what would be known as a micro-grower and not 
commercial. So therefore, they do not have the means of 
distribution, et cetera. The food hubs play a critical role in 
getting the produce from the farm to the end users.
    In addition to nonprofit food hubs, sometimes they also 
have some challenges in distribution and coldchain, et cetera. 
Where we do not have a successful nonprofit in our market, food 
hub, but we have stepped in as a distributor to act as the 
local food hub.
    In working with our school districts, we can choose local 
growers or they can choose local growers themselves and then we 
act, they deliver to us and then we deliver out to the numerous 
schools rather than having a farmer in his pickup truck or 
whatever trying to deliver to 40 schools all in one day.
    They are an integral part of the success of the local food 
program and the local farm to school program, so the funding 
and the processes to assist those food hubs is important.
    Senator Gillibrand. Do you have any ideas for the Committee 
on how we can expand that, because--Amy has just left--but if 
some of her challenges is actually getting access to the fresh 
whole foods, fruits and vegetables from her local farmers, what 
are some policy ideas you could offer that we could expand food 
hubs?
    You know, we try to use the program as aggressively as we 
can in supporting grant applications and getting access to 
capital. But do you have any thoughts about how to expand the 
program?
    Mr. Muir. I do not specifically. I know that it is a big 
challenge and we need to continue to work on that. We also have 
to keep in perspective that although local foods is a good way 
to go, it cannot solve all of our problems.
    We still have to rely on the commercial sector, the 
commercial farms who can produce large quantities of product to 
supply our schools and other sources. For instance, if a large 
school district would go to a small grower and say we want to 
use your produce, they could wipe out his whole crop in one 
day.
    We have to put that in perspective. But I think we continue 
to work with the food hubs, working with USDA, the grant money 
and seeing if we can develop that system. It is a whole new 
distribution system that is new to all of us. It will take time 
to develop.
    Senator Gillibrand. Yes, but it really works. When it gets 
implemented, it is incredible.
    Similarly, this past year USDA allocated $100 million for 
technical assistance and administrative funds to help meet with 
the new nutrition standards. However, more than half of the 
money has been returned to the USDA. That means that states 
have not been utilizing all the resources that were available 
for them.
    For example, in New York State, 46 percent of the 
implementation funds are not being used which equals $2.5 
million.
    Dr. Wilson could you speak to what you are doing in your 
State to leverage the USDA dollars to help provide technical 
assistance to schools to meet the new nutrition standards?
    Dr. Wilson. Yes. First of all, The Institute is a national 
institute so we go nationwide and actually we are doing 
technical assistance in New York City right now.
    Senator Gillibrand. That is great.
    Dr. Wilson. It is coming from our budget not theirs. But 
that has been an issue. Now, there are ways for those states to 
contract with us. We have had outside contracts from a number 
of states using their team nutrition money, some of their SAE 
funds to contract with us to do specific things in their state.
    Mississippi did it. He had some foundation money from Bower 
Foundation. We contracted in their State and did culinary 
training all over their State because Scott wanted that to be 
done in his State.
    California did the same thing where we did 10 culinary 
trainings all over the State just contracted to train trainers 
so that they could go out and train.
    Those states can use that money with us very easily and get 
us to put our experienced trainers on the ground to help them 
make sure that those standards are being met and there are all 
different topics that we offer from hands-on to online, from 
culinary to financial management to use those monies.
    Senator Gillibrand. Thank you, Madam Chairwoman.
    Chairwoman Stabenow. Thank you very much, and thanks to all 
of you. This is really an important snapshot I think of how the 
program is working across the country, the challenges that we 
face.
    We want to work with all of you to continue moving forward, 
build on best practices, be able to support and tackle the 
things that we are still needing to tackle to make sure that 
all schools are successful because in the bottom line we are 
talking about something pretty important here in terms of the 
health of the future of the country, tackling childhood obesity 
and adult obesity based on the habits that we all acquire as we 
are children.
    Certainly we know that change always is a little difficult 
but in this case is well worth the effort. So thank you again. 
We look forward to working with you on the reauthorization of 
the Child Nutrition Program.
    I would say to my colleagues that any additional questions 
for the record should be submitted to the Committee clerk five 
business days from today. That is 5:00 p.m. on Wednesday July 
30 and the meeting is adjourned.
    [Whereupon, at 11:35 a.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             JULY 23, 2014



      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             JULY 23, 2014



      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


                         QUESTIONS AND ANSWERS

                             JULY 23, 2014



      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
